                               Report Template Update = 04-30-05_rev.13




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     MEDICAID PROVIDER 

  ENROLLMENT STANDARDS:

MEDICAL EQUIPMENT PROVIDERS





                    Daniel R. Levinson

                     Inspector General 


                      October 2006

                     OEI-04-05-00180

                                                           Report Template Update = 04-30-05_rev.13




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                             Report Template Update = 04-30-05_rev.13




  Δ         E X E C U T I V E                                S U M M A R Y                                                



                    OBJECTIVE
                    To (1) identify the standards used by selected States to enroll Medicaid
                    durable medical equipment (DME) providers, (2) determine the extent
                    to which States verify that providers meet these standards, and
                    (3) determine the extent to which States reenroll Medicaid DME
                    providers.


                    BACKGROUND
                    The Office of Inspector General has previously identified concerns about
                    fraudulent DME providers in the Medicare program. Similarly, the
                    Government Accountability Office has also determined that
                    vulnerabilities exist for ensuring the integrity of Medicaid providers.
                    Provider enrollment standards represent one mechanism States can use
                    to protect the integrity of their Medicaid DME programs.

                    States are mandated to provide certain basic services to recipients of
                    Medicaid home health services. These include medical supplies,
                    equipment, and appliances, which are often referred to as DME. States
                    enroll providers to supply DME to Medicaid beneficiaries, and assign
                    providers identification numbers entitling them to receive
                    reimbursements under the State’s Medicaid program.

                    Each State sets its own standards (defined in this report as any
                    safeguards, guidelines, requirements, or practices) for the enrollment of
                    Medicaid DME providers. In addition, States may verify whether
                    providers meet standards at initial enrollment, and may also review
                    providers after enrollment, to determine whether providers continue to
                    adhere to State standards. One method of verifying whether a DME
                    provider meets State standards is to conduct site visits of the provider’s
                    location.

                    Unlike Medicaid, Medicare has provider enrollment standards that are
                    uniform across all States (except licensure requirements that vary from
                    State to State). Compliance with most of these standards is verified by
                    the National Supplier Clearinghouse (NSC) through site visits, while
                    compliance with other standards is verified when the application is
                    reviewed. In addition to initial enrollment, Medicare also requires
                    providers to reenroll every 3 years, during which time providers must
                    certify they meet and will continue to meet Medicare standards.

                    There are planned changes for DME provider enrollment in the
                    Medicare program. In August 2006, CMS issued a final rule requiring
OEI-04-05-00180     M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                               i
                                                                                            Report Template Update = 04-30-05_rev.13




         E X E C U T I V E                        S U           M M A R Y


                   DME suppliers to go through an accreditation process. This process will
                   utilize approved quality standards that DME suppliers must meet to
                   participate in and bill the Medicare program. Until these changes are
                   fully implemented, NSC will continue with its enrollment
                   responsibilities, which include conducting site visits and reenrolling
                   DME providers.

                   Providers may enroll in both the Medicare and Medicaid programs. If
                   providers are enrolled in both programs, they are subject to both the
                   Medicare standards as well as State provider enrollment standards.
                   There are no estimates currently available for the number of providers
                   dually enrolled.

                   To address the three objectives of our evaluation, we collected data from
                   14 States and the District of Columbia (referred to as 15 States
                   throughout the report) using e-mail and telephone surveys. We also
                   examined States’ provider enrollment applications and written
                   documentation about State standards to conduct a selective review of
                   State-reported information. Our data collection was completed during
                   September and October 2005.


                   FINDINGS
                   States that we reviewed employed a variety of standards for DME
                   provider enrollment. All 15 States in our evaluation reported various
                   DME provider enrollment standards. The goal of some of these
                   standards, such as providers posting a sign and hours of operation, help
                   ensure that an appropriate physical facility is being operated. In
                   addition, standards include licensure of providers and obtaining surety
                   bonds. One State imposed a moratorium for enrollment of new DME
                   providers.

                   Seven of the fifteen States required providers to enroll as Medicare
                   DME providers, which subjects all Medicaid providers in these seven
                   States to Medicare standards. The eight remaining States did not
                   require providers to be enrolled in the Medicare DME program. For
                   these eight States, data regarding how many Medicaid DME providers
                   choose to enroll as Medicare DME providers (and, therefore would be
                   subject to Medicare standards) are not available.




OEI-04-05-00180    M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                              ii
                                                                                           Report Template Update = 04-30-05_rev.13




    E X E C U T I V E                   S U            M M A R Y


                  Most States that we reviewed were not routinely verifying whether
                  providers met all State DME provider enrollment standards. While
                  the States in our review requested information from providers during
                  the enrollment process, most of these States were not routinely
                  verifying all of the information submitted by providers. For example,
                  while all 15 States requested that applicants disclose their criminal
                  history, only 2 States routinely conducted criminal background checks
                  at enrollment. Florida and New York were the only States in our review
                  that verified whether providers met all of their reported standards.

                  Seven of the fifteen States did not conduct routine site visits at
                  enrollment; however, four of these seven States did require Medicare
                  enrollment as a condition of Medicaid enrollment. By requiring
                  Medicare enrollment, applicants should receive site visits by NSC in
                  order to enroll in the Medicare program. The remaining three States
                  neither performed routine site visits to verify enrollment information
                  nor required Medicare DME participation as a condition of enrollment.
                  Four of the fifteen States routinely reenrolled DME providers; two
                  additional States reported recent initiatives to reenroll providers.
                  For the four States that routinely reenrolled providers, the timeframe
                  for reenrollment varied from 2 to approximately every 5 years. One of
                  the 2 States that reported recent reenrollment initiatives, California,
                  reported that 646 of its 1,420 DME providers voluntarily chose to leave
                  the program during 1999 through 2004. The other State, New Jersey,
                  was reenrolling all providers for the first time; this process is expected
                  to continue during 2006.
                  Nine States did not conduct Medicaid reenrollment. However, five of
                  these nine States did require that the provider be enrolled in the
                  Medicare program. For Medicare reenrollment, providers must certify
                  every 3 years that they meet Medicare standards and should receive site
                  visits as part of the Medicare reenrollment process. In contrast, the
                  remaining four States neither routinely reenrolled DME providers nor
                  required that providers be enrolled in Medicare.


                  CONCLUSION
                  Our review determined that the 15 States reviewed employed a variety
                  of provider enrollment standards to protect their Medicaid DME
                  programs. Some of these standards, such as providers posting a sign
                  and hours of operation, help ensure that an appropriate physical facility
                  is being operated. Also, standards include licensure of providers and

OEI-04-05-00180   M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                             iii
                                                                                           Report Template Update = 04-30-05_rev.13



      E X E C U T I V E                     S U            M M A R Y 




                  obtaining surety bonds. In addition, seven of the States that we
                  reviewed also required Medicaid providers to enroll as providers in the
                  Medicare program, which subjects Medicaid providers in these States to
                  Medicare standards.

                  Despite the presence of these standards, we determined that most of the
                  15 States were not verifying whether providers met all provider
                  enrollment standards, and that 7 of the 15 States were not conducting
                  routine site visits at initial enrollment. In addition, only 6 of the
                  15 States reported that they either routinely reenrolled providers, or
                  had recent initiatives to reenroll providers.




OEI-04-05-00180   M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                             iv
                                                                      Report Template Update = 04-30-05_rev.13




Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 6

                   State Medicaid standards for DME provider enrollment . . . . . . . . 6 


                   Verification of DME provider enrollment standards . . . . . . . . . . . 7 


                   Reenrollment of Medicaid DME providers . . . . . . . . . . . . . . . . . . . . 9 




         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   A: 	Medicare Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                   B: 	Categories and Definitions of State Standards . . . . . . . . . . . . 19 


                   C: 	Medicaid Standards Implemented by the 15 States. . . . . . . . . 21 


                   D: 	Effect of Requirements to Enroll in Medicare on State 

                         Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 





           .
         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 

                                                                                             Report Template Update = 04-30-05_rev.13




  Δ         I N T R O D U C T I O N                                                



                    OBJECTIVE
                    To (1) identify the standards used by selected States to enroll Medicaid
                    durable medical equipment (DME) providers, (2) determine the extent
                    to which States verify that providers meet these standards, and
                    (3) determine the extent to which States reenroll Medicaid DME
                    providers.


                    BACKGROUND
                    The Office of Inspector General (OIG) has previously highlighted
                    concerns about fraudulent DME providers in the Medicare program.1
                    Similarly, the Government Accountability Office (GAO) has also
                    determined that vulnerabilities exist for ensuring the integrity of
                    Medicaid providers.2 A 2004 GAO report advised that preventing high
                    risk providers, intent on fraudulently billing, from entering the
                    Medicaid program is more efficient than attempting recovery of
                    payments once they have been made.3 Provider enrollment standards
                    represent one mechanism States can use to protect the integrity of their
                    Medicaid DME programs.
                    Durable Medical Equipment, Supplies, and Appliances
                    States are mandated to provide certain basic services to recipients of
                    Medicaid home health services. These include the provision of medical
                    supplies, equipment, and appliances,4 which are often referred to as
                    DME. DME includes many different types of devices, such as
                    wheelchairs, oxygen equipment, diabetic equipment, and canes. Federal
                    regulations do not define DME for Medicaid, and each State decides
                    what equipment to cover. In addition, States may offer other devices,
                    such as prosthetics, at their discretion.5 The Centers for Medicare &
                    Medicaid Services (CMS) does not estimate expenditures specifically for
                    Medicaid DME.
                    Enrollment of Medicaid DME Providers
                    Federal Requirements. At enrollment, Medicaid providers are required to
                    disclose information regarding ownership and control of the DME
                    business.6 In addition, providers must disclose whether individuals
                    with ownership and control of, or management or other similar
                    responsibilities for, the DME provider have been convicted of any
                    criminal offense relating to the Medicare or Medicaid program.7
                    Providers must also disclose if an individual with ownership or
                    management responsibilities has had civil or monetary penalties

OEI-04-05-00180     M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                               1
                                                                                            Report Template Update = 04-30-05_rev.13




         I N T R O D   U C T                 I O N


                   imposed relating to health care programs, and if such a person has been
                   excluded from participation in Medicare or any State health care
                   program.8 States must notify the Department of Health and Human
                   Service’s (HHS) Inspector General of any disclosures made by a
                   provider,9 as well as any action taken regarding the provider’s
                   participation in the program.10 To ensure that they are not enrolling
                   excluded individuals, States may check any provider seeking Medicaid
                   enrollment against OIG’s List of Excluded Individuals/Entities,
                   available on the Internet.
                   State Standards for Provider Enrollment. Each State sets its own
                   standards for enrollment of Medicaid providers. Pursuant to
                   42 CFR § 431.51(b)(1), Medicaid services may only be provided by
                   individuals or organizations that are qualified to provide a specified
                   service. States differ in their definition of a “qualified” provider. State
                   standards for Medicaid DME provider enrollment can range from
                   requiring that the DME business location be accessible during
                   reasonable business hours to requiring that Medicaid applicants enroll
                   in the Medicare program as a condition of Medicaid enrollment. In
                   addition, States may verify whether providers meet standards at initial
                   enrollment, and may also review providers after enrollment to
                   determine whether providers continue to adhere to State standards.
                   One method of verifying whether a DME provider meets State
                   standards is to conduct site visits of the provider’s location.

                   After a State approves an applicant to provide DME, the State assigns a
                   Medicaid DME identification number entitling the provider to receive
                   reimbursements under the State’s Medicaid program.
                   Medicare DME Provider Standards
                   Unlike Medicaid, Medicare provider enrollment requirements are
                   standardized across all States (except licensure requirements that vary
                   from State to State). CMS contracts out the enrollment process to the
                   National Supplier Clearinghouse (NSC). At the time our review was
                   conducted, Medicare DME providers were required to meet
                   21 standards in order to obtain billing privileges.11 These standards
                   include accessibility during reasonable business hours, liability
                   insurance, and compliance with Federal and State licensure
                   requirements.12 (See Appendix A for the complete listing of Medicare
                   standards.) Compliance with most of these standards is verified by
                   NSC through site visits. OIG has previously found that the site visit
                   process improved supplier compliance with Medicare standards.13
                   Other types of standards are verified when the application is reviewed.
OEI-04-05-00180    M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                              2
                                                                                            Report Template Update = 04-30-05_rev.13




         I N T R O D   U C T                 I O N

                   For example, the analyst reviewing the provider application will verify
                   liability insurance through the insurance company underwriting the
                   policy.

                   In addition to initial enrollment, Medicare also requires providers to
                   renew their application every 3 years, which is referred to as
                   reenrollment. Medicare DME providers must certify in their
                   applications that they meet and will continue to meet all Medicare
                   standards. NSC conducts site visits of the providers during
                   reenrollment to verify continued compliance with the standards.

                   There are planned changes for provider enrollment in the Medicare
                   program. Section 302(a)(1) of the Medicare Prescription Drug,
                   Improvement, and Modernization Act of 2003 requires the Medicare
                   program to develop and implement quality standards for DME
                   suppliers.14 Pursuant to a final rule published by CMS, all suppliers
                   are required to meet quality standards included as part of the
                   accreditation process to participate in and bill the Medicare program.15
                   According to the final rule, CMS will phase in the accreditation process
                   of DME suppliers.16 Until these changes are fully implemented, NSC
                   will continue with its enrollment responsibilities, which include
                   conducting site visits and reenrolling DME providers.
                   Vulnerabilities in Medicare Enrollment
                   Both OIG and GAO have identified vulnerabilities in the Medicare
                   enrollment process. In a 1997 report, OIG recommended numerous
                   improvements to the Medicare enrollment process, including surety
                   bond requirements and site visits of DME suppliers.17 In a follow-up
                   report in 2001, OIG determined that Medicare’s expansion of oversight
                   activities improved compliance with Medicare standards, but that more
                   measures were needed to receive a higher compliance rate.18 In 2005,
                   GAO determined that CMS should improve DME supplier compliance
                   with Medicare standards.19 Among its recommendations, GAO stated
                   that CMS should both strengthen its procedures to verify that suppliers
                   were meeting the Medicare standards, as well as enhance the standards
                   themselves.
                   Dual Enrollment and the National Provider Identifier
                   Any Medicaid provider who voluntarily enrolls in the Medicare
                   program, or is required to enroll in Medicare by a State agency as a
                   condition of Medicaid enrollment, is required to meet Medicare
                   standards. When the new quality standards and the accreditation
                   process are implemented, such providers will fall under these new

OEI-04-05-00180    M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                              3
                                                                                             Report Template Update = 04-30-05_rev.13




          I N T R O D     U C T                I O N


                    requirements. CMS does not track the number of DME providers
                    exclusively enrolled in the Medicaid program, nor those who are dually
                    enrolled in both Medicare and Medicaid. One of the obstacles in
                    determining these figures is the absence of a unique, national
                    identification number for providers. The Health Insurance Portability
                    and Accountability Act of 1996 required the Secretary of HHS to
                    implement unique identifiers for all health care providers. In
                    January 2004, the National Provider Identifier (NPI) was established by
                    final rule. All Medicare and Medicaid DME providers that are covered
                    health care providers, as defined by the rule, are required to use an NPI
                    by May 2007.20 In the future, the NPI may provide data to determine
                    which providers are dually enrolled in both Medicare and Medicaid.


                    METHODOLOGY

                    Scope
                    The purpose of our evaluation was to provide a report that broadly
                    outlined the standards used by selected States for their DME provider
                    enrollment programs; determine the extent to which States verify that
                    providers meet these standards; and determine the extent to which
                    these States reenroll Medicaid DME providers. We examined
                    reenrollment because the Medicare program uses reenrollment to verify
                    continued compliance with the Medicare standards; we sought to
                    determine if States similarly had reenrollment processes in place.
                    Reenrollment is important as it provides States the opportunity to
                    verify continued compliance with their standards.
                    Our evaluation was designed to provide descriptive information about
                    State-implemented standards, and we did not assess the effectiveness of
                    the standards. Also, we did not determine whether States were meeting
                    the specific Federal requirements pertaining to disclosure of ownership
                    and criminal history disclosure.21
                    For this evaluation, we defined DME provider enrollment standards as
                    any safeguards, guidelines, requirements, or practices that State
                    provider enrollment programs use to protect the integrity of their
                    Medicaid DME programs. We included 14 States and the District of
                    Columbia in our evaluation of DME provider enrollment standards
                    (referred to as 15 States throughout this report). The 15 States are
                    listed in Appendix C. These 15 States represent a mix of States with
                    different population sizes; are geographically diverse; and include
                    States participating in the Medi-Medi program.22 While results from
OEI-04-05-00180     M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                               4
                                                                                            Report Template Update = 04-30-05_rev.13




         I N T R O D   U C T                 I O N


                   this report cannot be projected to other States, our selection process
                   ensured that a diverse selection of States were included to provide
                   insight on DME provider enrollment practices.
                   Data Collection
                   To meet our three objectives, we collected data through e-mail and
                   telephone surveys. The surveys included questions addressing the
                   following areas:

                  o	 DME provider enrollment standards that must be met for an
                     applicant to be enrolled as a Medicaid provider (e.g., licensure and
                     accessibility during reasonable business hours),

                  o	 The extent to which States routinely verify that providers meet
                     State standards,

                  o	 The extent to which States routinely conduct site visits as part of
                     their verification processes, and

                  o	 Whether States reenroll Medicaid DME providers, what activities
                     occur during reenrollment, and how often reenrollment occurs.

                   As a part of the e-mail survey, we also requested that States submit
                   provider enrollment application packages as well as written documents
                   that supported their reported standards. We used this information to
                   conduct a document review. This was a selective review of the general
                   accuracy of State-reported information. If there were discrepancies
                   between State documentation and State responses, we worked with the
                   States to resolve these differences.

                   The data collection was completed during September and October 2005.
                   Therefore, unless otherwise noted, the standards included in this report
                   reflect standards in place during that timeframe. If State responses
                   were incomplete, we continued to follow up with States throughout the
                   fall of 2005.
                   Standards
                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.




OEI-04-05-00180    M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                              5
                                                                                                  Report Template Update = 04-30-05_rev.13




     Δ            F I N D I N G S 



   States that we reviewed employed a variety of             All 15 States reported various DME
          standards for DME provider enrollment              provider enrollment standards.
                                                             Table 1 provides the standards
                         that 15 States reported had been implemented specifically for their
                         Medicaid programs. For the definition of each standard listed below,
                         refer to Appendix B. For a State-by-State comparison of Medicaid
                         standards, refer to Appendix C.
                                        Table 1: State Enrollment Standards Reported by 15 States
                                                                             September – October 2005
                                                                                             States With
                                                                                                                                     Percentage Who Have
                                          Standard                                          Implemented
                                                                                                                                         the Standard
                                                                                             Standards
                         Criminal History Disclosure                                            15/15                                               100%
                         Ownership Disclosure                                                   15/15                                               100%
                         P.O. Box Prohibition                                                   14/15                                                93%
                         Primary Phone Number                                                   12/15                                               80%
                         Licensure                                                               8/15                                                53%
                         Records Storage                                                         8/15                                                53%
                         Signage and Hours Posted                                                8/15                                                53%
                         Accessibility During
                         Reasonable Business                                                         8/15                                           53%
                         Hours
                         Medicare Enrollment
                                                                                                     7/15                                           47%
                         Required
                         Inventory                                                                   6/15                                           40%
                         Liability Insurance                                                         3/15                                           20%
                         Surety Bonds                                                                1/15                                           7%
                         Moratorium*                                                                 1/15                                           7%
                         *A moratorium for provider enrollment is a safeguard that prevents the entry of new
                         providers into the program. This differs from the other standards in Table 1, which
                         are standards that providers must meet.


                         The standards in Table 1 provide safeguards for DME programs in
                         different ways. For example, standards such as the P.O. Box
                         Prohibition and the requirement to post a sign and hours of operation
                         help to ensure that an appropriate physical facility is being operated.
                         Additionally, in eight States, providers must comply with State
                         licensure requirements. Licensure is often required to make certain
                         that guidelines or regulations are being followed to ensure that
                         providers are offering services in a correct and safe manner to
                         beneficiaries. The type of licensure that is required varies from State to



OEI-04-05-00180          M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                           6
                                                                                               Report Template Update = 04-30-05_rev.13


    F   I N D I N G    S            





                      State; some States only require a sales tax permit, while others require
                      a professional license, such as a DME or a hearing aid license.

                      Two other standards included in Table 1 illustrate additional ways
                      States protect their DME programs from fraud and abuse. Florida
                      requires providers to obtain a surety bond as a condition of participation
                      in the Medicaid program. Surety bonds help indemnify the State
                      against fraud by requiring enrolling providers to post a bond that can be
                      later used by the State to recover any losses incurred by the provider.
                      Florida’s surety bond amount was $50,000. Two other States had taken
                      steps to develop a surety bond requirement, but due to opposition from
                      the provider community, these initiatives have not been implemented.
                      In another example of State safeguards, California imposed a
                      moratorium for new DME providers, an initiative that began in 1999.
                      Through the moratorium, California stopped issuing new Medicaid
                      DME provider numbers, with a few exceptions (e.g., a provider who has
                      restructured ownership).

                      As noted in Table 1, seven States required providers to enroll as
                      Medicare DME providers. Therefore, Medicaid providers in these States
                      were subject to Medicare standards, which include all of the State
                      standards included in Table 1, except surety bonds and moratorium.23
                      For the seven States with the requirement to enroll in Medicare, Table
                      1 includes only those standards that States reported they had instituted
                      specifically for their Medicaid program. If a State did not report having
                      a particular standard that is indirectly addressed through the
                      requirement to enroll in Medicare, we did not classify the State as
                      having the standard in Table 1. However, Appendix D provides analysis
                      of the effect of the Medicare requirement on the total number of
                      standards.

  Most States that we reviewed were not routinely           States can verify whether
                                                            providers meet some standards
   verifying whether providers met all State DME
                                                            through site visits, while other
                   provider enrollment standards
                                                            standards can be verified when
                      the application is reviewed. For example, a State’s review process of
                      providers’ applications can include verifying the legitimacy of licenses
                      online via State databases or Web sites, and verifying primary phone
                      numbers via Web searches or calling the number directly.

                      While the States in our review requested information from providers
                      during the enrollment process, we found that gaps exist between
                      standards and State verification processes. For example, while all 15

OEI-04-05-00180       M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                 7
                                                                                                   Report Template Update = 04-30-05_rev.13




F   I N D I N G       S

                          States requested that applicants disclose their criminal history, only 2
                          States routinely conducted criminal background checks at enrollment.
                          Florida and New York were the only States in our review that verified
                          all of their reported standards.

                          Table 2 outlines State standards, the number of States verifying
                          providers met each standard, and the percentage of States verifying
                          whether providers met the standards. Appendix B provides a definition
                          of each standard and verification process listed below. Appendix C
                          details totals for each State.


                                       Table 2: State-Implemented Standards vs. Verification Process
                                                           15 Reviewed States*
                                                         September - October 2005
                                 Type of Standard*                              Number of                           Number of                        Percentage That
                                                                                States With                         States That                        Verified the
                                                                                Standards                           Verified the                        Standard
                                                                                                                     Standard

                               Criminal History
                                                                                                                               2                          13%
                               Disclosure                                                 15
                               Ownership
                                                                                          15                                 14**                         93%
                               Disclosure
                               P.O. Box Prohibition                                       14                                  10                          71%
                               Primary Phone
                                                                                          12                                   5                          42%
                               Number
                               Licensure                                                    8                                  7                          88%
                               Records Storage                                              8                                  5                          63%
                               Signage and Posted
                                                                                            8                                  8                          100%
                               Hours
                               Accessibility During
                               Reasonable                                                   8                                  7                          88%
                               Business Hours
                               Medicare
                                                                                            7                                  7                          100%
                               Enrollment Required
                               Inventory                                                    6                                  6                          100%
                               Liability Insurance                                          3                                  2                          67%
                               Surety Bonds                                                 1                                  1                          100%
                                  *The safeguard of moratorium that was listed in Table 1 was not applicable to
                                  this table, because a moratorium stops issuance of DME numbers to new
                                  providers.
                                  **We define verification of ownership disclosure as States checking owners
                                  against OIG’s List of Excluded Individuals/Entities.




    OEI-04-05-00180       M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                                 8
                                                                                                     Report Template Update = 04-30-05_rev.13



      F   I N D I N G             S



                            Seven of the fifteen States did not routinely conduct site visits at enrollment
                            to verify whether providers were meeting State standards
                            Site visits can determine whether certain information provided during
                            enrollment is accurate and the provider is operating a legitimate DME
                            business. Site visits are often the only method available to verify
                            specific standards. For example, a site visit enables a State to
                            determine whether a provider’s business is accessible during reasonable
                            business hours. Other standards that can be verified through site visits
                            include: records storage, inventory, and posted sign and hours of
                            operation.

                            Seven of the fifteen States did not conduct routine site visits as part of
                            their provider enrollment process. However, four of these States did
                            require Medicare enrollment as a condition of Medicaid enrollment. By
                            requiring Medicare enrollment, applicants should receive site visits by
                            NSC in order to enroll in the Medicare program. The remaining three
                            States neither performed routine site visits to verify enrollment
                            information nor required Medicare DME participation as a condition of
                            enrollment. Without State-conducted site visits or enrollment in
                            Medicare, Medicaid-only providers were unlikely to have their DME
                            business reviewed through routine site visits at enrollment.

                            Eight of the fifteen States routinely conducted site visits at
                            enrollment.24 Four of the eight States conducting site visits reported
                            that site visits were the most effective component of their provider
                            enrollment standards and verification processes.


                   Four of the fifteen States routinely reenrolled            Connecticut, Florida,
                  DME providers; two additional States reported               Georgia, and Illinois
                                                                              routinely reenroll DME
                          recent initiatives to reenroll providers
                                                                              providers, but
                                                                              reenrollment in these
                            States does not include routine site visits. An example of the types of
                            activities that occur at reenrollment is illustrated by the State of
                            Florida. In that State, the provider must verify basic demographic
                            information, such as name, tax identification number, address,
                            telephone number, and whether or not a change of ownership has
                            occurred. Further, providers are required to sign a new provider
                            agreement at reenrollment. The timeframes the four States used for
                            reenrollment varied as specified below:



OEI-04-05-00180             M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                       9
                                                                                              Report Template Update = 04-30-05_rev.13



         F 	I N D I N G        S



                             o	 Every 2 years (Connecticut and Georgia),

                             o	 Every 5 years (Illinois), and

                             o	 Once every fiscal agent contract, approximately every 5 years
                                (Florida).

                     Although New Jersey and California did not report conducting
                     reenrollment on a routine basis, both States reported recent initiatives
                     to reenroll providers. New Jersey reported that they were reenrolling
                     all providers for the first time; this process is expected to continue
                     during 2006. California recently completed a 5-year effort to reenroll all
                     DME providers. From 1999 through 2004, 646 of the 1,420 DME
                     providers voluntarily chose to leave the program.25 In addition to
                     reenrollment, the State restricted entry of new DME providers into
                     California Medicaid, imposing a moratorium for new DME providers
                     beginning in 1999.

                     Nine States did not conduct Medicaid reenrollment. However, five of
                     these nine States did require that the provider be enrolled in the
                     Medicare program. For Medicare reenrollment, providers must certify
                     every 3 years that they meet Medicare standards and should receive site
                     visits as a part of the Medicare reenrollment process. In contrast, the
                     remaining four States neither routinely reenrolled DME providers nor
                     required that providers be enrolled in Medicare. Therefore, providers in
                     these States were unlikely to be routinely reviewed for continued
                     compliance with provider enrollment standards, unless they had
                     voluntarily enrolled in the Medicare program.




OEI-04-05-00180      M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                10
                                                                                              Report Template Update = 04-30-05_rev.13




            Δ     C O N C L U S I O N                                                     



                     Our review determined that the 15 States reviewed employed a variety
                     of provider enrollment standards to protect their Medicaid DME
                     programs. Some of these standards, such as providers posting a sign
                     and hours of operation, help ensure that an appropriate physical facility
                     is being operated. Also, standards include licensure of providers and
                     obtaining surety bonds. In addition, seven of the States that we
                     reviewed also required Medicaid providers to enroll as providers in the
                     Medicare program, which subjects Medicaid providers in these States to
                     Medicare standards.

                     Despite the presence of these standards, we determined that most of the
                     15 States were not verifying whether providers met all provider
                     enrollment standards, and that 7 of the 15 States were not conducting
                     routine site visits at initial enrollment. In addition, only 6 of the
                     15 States reported that they either routinely reenrolled providers, or
                     had recent initiatives to reenroll providers.




OEI-04-05-00180      M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                11
                                                                                             Report Template Update = 04-30-05_rev.13




  Δ         E N D N O T E S                            





                       “Medical Equipment Suppliers: Assuring Legitimacy” (OEI-04-96
                        1

                    00240, December 1997).

                       “Medicaid: HCFA and States Could Work Together to Better Ensure
                        2

                    the Integrity of Providers” (GAO/T-HEHS-00-159, July 18, 2000), and
                    “Medicaid Program Integrity: State and Federal Efforts to Prevent and
                    Detect Improper Payments” (GAO-04-707, July 16, 2004).

                       “Opportunities for Congressional Oversight and Improved Use of
                        3

                    Taxpayer Funds: Budgetary Implications of Selected GAO Work” (GAO
                    04-649, May 7, 2004).

                        4   42 CFR § 440.70(b)(3) and 42 CFR § 441.15(a)(3).

                       CMS details information about State Medicaid programs including
                        5

                    optional services offered by States in “Medicaid At-a-Glance 2005.”
                    Available online at http://www.cms.hhs.gov/MedicaidGenInfo/
                    Downloads/ MedicaidAtAGlance2005.pdf. Accessed February 8, 2006.

                        6   42 CFR § 455.104.

                        7   42 CFR § 455.106.

                        8   42 CFR § 1002.3(a).

                        9   42 CFR § 455.106(b)(1) and 42 CFR § 1002.3(b)(1).

                        10   42 CFR § 455.106(b)(2) and 42 CFR § 1002.3(b)(3).

                        CMS published a final rule on August 18, 2006, at 71 FR 48354,
                        11

                    entitled “Medicare Program; Inpatient Rehabilitation Facility Prospective
                    Payment System for Federal Fiscal Year 2007; Certain Provisions
                    Concerning Competitive Acquisition for Durable Medical Equipment,
                    Prosthetics, Orthotics, and Supplies (DMEPOS); Accreditation of
                    DMEPOS Suppliers.” In part, this final rule amends the durable medical
                    equipment certification standards regulation at 42 CFR § 424.57(c) by




OEI-04-05-00180     M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                               12
                                                                                           Report Template Update = 04-30-05_rev.13




                  adding four additional standards. See Appendix A for the standards in
                  place at the time of evaluation, as well as the text of the new standards.

                      12   42 CFR § 424.57(c).

                      “Medical Equipment Suppliers: Compliance with Medicare
                      13

                  Standards” (OEI-04-99-00670, August 2001).

                      14   Pub. L. 108-173, adding section 1834(a)(20) of the Social Security Act.

                      See 42 CFR § 424.57(c)(24) (as added by the Medicare program final
                      15

                  rule at 71 FR 48354 (August 18, 2006)). CMS has posted quality
                  standards for suppliers of DMEPOS on its Web site at
                  http://www.cms.hhs.gov/CompetitiveAcqforDMEPOS/downloads/CMS_
                  DMEPOS_Quality_ Standards_081406.pdf.

                     See the preamble to the Medicare program final rule at 71 FR at
                      16

                  48392.

                     “Medical Equipment Suppliers: Assuring Legitimacy” (OEI-04-96
                      17

                  00240, December 1997).

                      “Medical Equipment Suppliers: Compliance with Medicare
                      18

                  Standards” (OEI-04-99-00670, August 2001).

                      “Medicare: More Effective Screening and Stronger Enrollment
                      19

                  Standards Needed for Medical Equipment Suppliers” (GAO-05-656,
                  September 22, 2005).

                      20   45 CFR § 162.404.

                      Our study included general survey questions to States, including
                      21

                  whether States obtain ownership disclosure from providers, and whether
                  States obtain providers’ and business owners’ criminal history
                  disclosures. However, we did not determine whether States fully met the
                  specific Federal requirements for ownership disclosure (42 CFR
                  § 455.104) and criminal history disclosure (42 CFR § 455.106).




OEI-04-05-00180   M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                             13
                                                                                           Report Template Update = 04-30-05_rev.13




                       Medi-Medi is the Medicare-Medicaid match program in which claims
                      22

                  data are analyzed to determine vulnerabilities in both programs. By
                  analyzing data from both programs together, patterns may be detected
                  that may not be evident when billings for either program are viewed in
                  isolation.

                       The eight remaining States did not require providers to be enrolled
                      23

                  in the Medicare DME program. For these States, data regarding how
                  many Medicaid DME providers choose to enroll as Medicare DME
                  providers (and, therefore would be subject to Medicare standards) were
                  not available.

                      The eight States that routinely conducted site visits at enrollment
                      24

                  were California, Connecticut, Florida, Georgia, Illinois, Nevada, New
                  Jersey, and New York. Connecticut conducted site visits only for
                  Medicaid DME providers that offered services that were not covered by
                  Medicare (e.g., hearing aids), and subsequently were not enrolled in the
                  Medicare program. If a provider was enrolled in Medicare, Connecticut
                  verified the Medicare supplier number and relied on Medicare’s site visit
                  verification.

                      California estimated a savings of approximately $193 million per
                      25

                  year from this reenrollment project. The State based this estimate on the
                  average monthly billing for this provider type, which is $25,000 per
                  month. OIG did not independently assess this estimate.




OEI-04-05-00180   M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                             14
                                                                                                  Report Template Update = 04-30-05_rev.13




        Δ
        A P P E N D I X                                    A


                  Medicare Standards
                         This appendix contains both the standards in place at the time of our
                         review as well as standards recently added by CMS.

                         The following are the 21 Medicare standards as outlined in
                         42 CFR § 424.57(c), at the time of our review. The supplier:

                         (1) Operates its business and furnishes Medicare-covered items in
                         compliance with all applicable Federal and State licensure and
                         regulatory requirements;
                         (2) Has not made, or caused to be made, any false statement or
                         misrepresentation of a material fact on its application for billing
                         privileges. (The supplier must provide complete and accurate
                         information in response to questions on its application for billing
                         privileges. The supplier must report to CMS any changes in
                         information supplied on the application within 30 days of the change.);

                         (3) Must have the application for billing privileges signed by an
                         individual whose signature binds a supplier;

                         (4) Fills orders, fabricates, or fits items from its own inventory or by
                         contracting with other companies for the purchase of items necessary to
                         fill the order. If it does, it must provide, upon request, copies of
                         contracts or other documentation showing compliance with this
                         standard. A supplier may not contract with any entity that is currently
                         excluded from the Medicare program, any State health care programs,
                         or from any other Federal Government Executive Branch procurement
                         or nonprocurement program or activity;

                         (5) Advises beneficiaries that they may either rent or purchase
                         inexpensive or routinely purchased durable medical equipment, and of
                         the purchase option for capped rental durable medical equipment, as
                         defined in § 414.220(a) of this subchapter. (The supplier must provide,
                         upon request, documentation that it has provided beneficiaries with this
                         information, in the form of copies of letters, logs, or signed notices.);

                         (6) Honors all warranties expressed and implied under applicable State
                         law. A supplier must not charge the beneficiary or the Medicare
                         program for the repair or replacement of Medicare covered items or for
                         services covered under warranty. This standard applies to all
                         purchased and rented items, including capped rental items, as described
                         in § 414.229 of this subchapter. The supplier must provide, upon
OEI-04-05-00180          M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                    15
                                                                                                    Report Template Update = 04-30-05_rev.13



           A      P   P E N D        I X               A



                           request, documentation that it has provided beneficiaries with
                           information about Medicare covered items covered under warranty, in
                           the form of copies of letters, logs, or signed notices;

                           (7) Maintains a physical facility on an appropriate site. The physical
                           facility must contain space for storing business records including the
                           supplier's delivery, maintenance, and beneficiary communication
                           records. For purposes of this standard, a post office box or commercial
                           mailbox is not considered a physical facility. In the case of a multi-site
                           supplier, records may be maintained at a centralized location;

                           (8) Permits CMS, or its agents to conduct on-site inspections to
                           ascertain supplier compliance with the requirements of this section.
                           The supplier location must be accessible during reasonable business
                           hours to beneficiaries and to CMS, and must maintain a visible sign and
                           posted hours of operation;

                           (9) Maintains a primary business telephone listed under the name of
                           the business locally or toll-free for beneficiaries. The supplier must
                           furnish information to beneficiaries at the time of delivery of items on
                           how the beneficiary can contact the supplier by telephone. The
                           exclusive use of a beeper number, answering service, pager, facsimile
                           machine, car phone, or an answering machine may not be used as the
                           primary business telephone for purposes of this regulation;

                           (10) Has a comprehensive liability insurance policy in the amount of at
                           least $300,000 that covers both the supplier's place of business and all
                           customers and employees of the supplier. In the case of a supplier that
                           manufactures its own items, this insurance must also cover product
                           liability and completed operations. Failure to maintain required
                           insurance at all times will result in revocation of the supplier's billing
                           privileges retroactive to the date the insurance lapsed;

                           (11) Must agree not to contact a beneficiary by telephone when
                           supplying a Medicare-covered item unless one of the following applies:

                                       (i) The individual has given written permission to the supplier to
                                       contact them by telephone concerning the furnishing of a
                                       Medicare-covered item that is to be rented or purchased.

                                       (ii) The supplier has furnished a Medicare-covered item to the
                                       individual and the supplier is contacting the individual to
                                       coordinate the delivery of the item.

                                       (iii) If the contact concerns the furnishing of a Medicare-covered
                                       item other than a covered item already furnished to the individual,
OEI-04-05-00180            M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                      16
                                                                                                Report Template Update = 04-30-05_rev.13




          A   P   P E N D      I X               A



                                   the supplier has furnished at least one covered item to the
                                   individual during the 15-month period preceding the date on
                                   which the supplier makes such contact.

                       (12) Must be responsible for the delivery of Medicare covered items to
                       beneficiaries and maintain proof of delivery. (The supplier must
                       document that it or another qualified party has at an appropriate time,
                       provided beneficiaries with necessary information and instructions on
                       how to use Medicare-covered items safely and effectively);

                       (13) Must answer questions and respond to complaints a beneficiary
                       has about the Medicare-covered item that was sold or rented. A
                       supplier must refer beneficiaries with Medicare questions to the
                       appropriate carrier. A supplier must maintain documentation of
                       contacts with beneficiaries regarding complaints or questions;

                       (14) Must maintain and replace at no charge or repair directly, or
                       through a service contract with another company, Medicare-covered
                       items it has rented to beneficiaries. The item must function as required
                       and intended after being repaired or replaced;

                       (15) Must accept returns from beneficiaries of substandard (less than
                       full quality for the particular item or unsuitable items, inappropriate for
                       the beneficiary at the time it was fitted and rented or sold);

                       (16) Must disclose these supplier standards to each beneficiary to whom
                       it supplies a Medicare-covered item;

                       (17) Must comply with the disclosure provisions in § 420.206 of this
                       subchapter;

                       (18) Must not convey or reassign a supplier number;
                       (19) Must have a complaint resolution protocol to address beneficiary
                       complaints that relate to supplier standards in paragraph (c) of this
                       section and keep written complaints, related correspondence and any
                       notes of actions taken in response to written and oral complaints.
                       Failure to maintain such information may be considered evidence that
                       supplier standards have not been met. (This information must be kept
                       at its physical facility and made available to CMS, upon request.);

                       (20) Must maintain the following information on all written and oral
                       beneficiary complaints, including telephone complaints, it receives:

                                   (i) The name, address, telephone number, and health insurance
                                   claim number of the beneficiary.


OEI-04-05-00180        M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                  17
                                                                                              Report Template Update = 04-30-05_rev.13


          A   P P E N D      I X               A 





                                 (ii) A summary of the complaint; the date it was received; the
                                 name of the person receiving the complaint, and a summary of
                                 actions taken to resolve the complaint.

                                 (iii) If an investigation was not conducted, the name of the person
                                 making the decision and the reason for the decision.

                     (21) Provides to CMS, upon request, any information required by the
                     Medicare statute and implementing regulations.


                     The additional standards recently added by CMS, see footnote 11, are:

                     (22) All suppliers of DMEPOS and other items and services must be
                     accredited by a CMS-approved accreditation organization in order to
                     receive and retain a supplier billing number. The accreditation must
                     indicate the specific products and services, for which the supplier is
                     accredited in order for the supplier to receive payment for those specific
                     products and services.

                     (23) All DMEPOS suppliers must notify their accreditation
                     organization when a new DMEPOS location is opened. The
                     accreditation organization may accredit the new supplier location for
                     three months after it is operational without requiring a new site visit.

                     (24) All DMEPOS supplier locations, whether owned or subcontracted,
                     must meet the DMEPOS quality standards and be separately accredited
                     in order to bill Medicare. An accredited supplier may be denied
                     enrollment or their enrollment may be revoked, if CMS determines that
                     they are not in compliance with the DMEPOS quality standards.

                     (25) All DMEPOS suppliers must disclose upon enrollment all products
                     and services, including the addition of new product lines for which they
                     are seeking accreditation. If a new product line is added after
                     enrollment, the DMEPOS supplier will be responsible for notifying the
                     accrediting body of the new product so that the DMEPOS supplier can
                     be re-surveyed and accredited for these new products.




OEI-04-05-00180      M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                18
                                                                                                    Report Template Update = 04-30-05_rev.13




          Δ
       A P P E N D I X                                         B


                  This appendix consists of categories and definitions of State provider enrollment
                  standards we developed to analyze State standards for DME providers.
                  Categories and Definitions for State Provider Enrollment Standards
                           Accessibility During Reasonable Business Hours: Provider’s location
                           must be accessible during reasonable business hours to beneficiaries
                           and to the State.

                           Accessibility Verified: State verifies that providers are accessible
                           during reasonable business hours.

                           Criminal History Disclosure: Criminal history must be disclosed by
                           providers.

                           Criminal History Verified: State conducts criminal background checks
                           of providers.

                           Inventory: State requires providers to fill DME orders from their own
                           inventory or have contracts in place to fill the order.

                           Inventory Verified: State verifies that providers fill DME orders from
                           their own inventory or have contracts in place to fill the order.

                           Liability Insurance: State requires providers to have liability
                           insurance.

                           Liability Insurance Verified: State verifies that providers have liability
                           insurance.

                           Licensure: State requires some or all providers to hold a license
                           (e.g., sales tax permit or professional license).

                           Licensure Verified: State verifies that providers hold appropriate
                           licensure (e.g., sales tax permit or professional license).

                           Medicare Enrollment Required: State requires Medicaid DME
                           providers to be enrolled in the Medicare program in order to be enrolled
                           in the State Medicaid DME program. Any provider enrolled in
                           Medicare is required to meet Medicare standards (see Appendix A).

                           States Requiring Medicare that Verify: For State with the Medicare
                           enrollment requirement, State verifies whether the provider is enrolled
                           in Medicare.

                           Moratorium: State has stopped issuing DME provider numbers.

OEI-04-05-00180            M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                      19
                                                                                                 Report Template Update = 04-30-05_rev.13




         A   P    P E N D    I X                B

                        Ownership Disclosure: Provider must disclose who has business
                        ownership and/or control of the DME business.

                        Ownership Reviewed for Exclusions: State checks owners against OIG’s
                        List of Excluded Individuals/Entities.

                        P.O. Box Prohibition: State prohibits the providers from using a P.O.
                        Box or commercial mailbox as their physical facility.

                        P.O. Box Verified: State verifies that providers are not using a P.O. Box
                        or commercial mailbox as their physical facility.

                        Primary Phone Number: Provider must have a primary business
                        telephone number.

                        Primary Phone Number Verified: State verifies the primary business
                        phone number of DME provider applicants.

                        Records Storage: Provider’s physical facility must contain space for
                        storing records (including delivery, maintenance, and beneficiary
                        communication records).

                        Records Storage Verified: State verifies that provider’s physical facility
                        contains space for storing records.

                        Signage and Hours Posted: Providers are required to maintain a visible
                        sign and posted hours of operation.

                        Signage and Hours Posted Verified: State verifies that providers are
                        maintaining a visible sign and posted hours of operation.

                        Surety Bonds: Providers must post a surety bond prior to enrollment.

                        Surety Bonds Verified: State verifies that providers meet the surety
                        bond requirement.




OEI-04-05-00180         M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                   20
.. APPENDIX C

            Table 1: Medicaid Standards Implemented by the 15 States as of October 2005
State Accessibilty Accessibility Criminal     Criminal Inventory Inventory Liabilty      Liabilty
      During         Verified     History     History               Verified   Insurance Insurance
      Reasonable                  Disclosure Verified                                    Verified
      Business
      Hours
CA                X               X                X                           X             X     X   X
CT                X               X                X                           X             X
DC                X                                X
FL                X              X                 X             X             X             X
GA                                                 X                                               X
IL                X              X                 X                           X             X
MN                                                 X
MT                                                 X
NV                X              X                 X                                               X   X
NJ                X              X                 X                           X             X
NY                X              X                 X             X             X             X
NC                                                 X
OH                                                 X
TX                                                 X
WY                                                 X
Total             8              7                15             2             6             6     3   2
     Source: Analysis of State Medicaid DME standards compiled by OIG.




OEI.04.05.00180              MEDICAID PROVIDER ENROLLMENT STANDARDS: MEDICAL EQUIPMENT PROVIDERS
                                                                                                           21
Ii-PPENDIX C


              Table 1 (cont): Medicaid Standards Implemented by the 15 States as of October 2005
 State Licensure Licensure Medicare        States     Moratorium Ownership Ownership Primary                                 Primary
                  Verified     Enrollment Requiring                Disclosure Reviewed       Phone                           Phone
                               Required    Medicare                             for          Number                          Number
                                           that                                 Exclusions                                   Verified
                                                      Verify
CA                X         X                                               X               X          X             X           X
CT                X*        X               X               X                               X          X
DC                X                         X               X                               X                        X
FL                X         X                                                               X          X             X           X
GA                                                                                          X          X             X
IL                X         X                                                               X          X             X
MN                                                                                          X          X             X
MT                                                                                          X          X             X
NV             X            X                                                               X          X             X           X
NJ                                          X              X                                X          X
NY                                          X              X                                X          X             X           X
NC            X             X               X              X                                X          X             X
OH            X             X                                                               X          X             X           X
TX**                                        X              X                                X          X             X
WY                                          X              X                                X          X
Total         8              7            7              7               1             15              14            12           5
 *For hearing aid dealers only.
 **Although Texas does not have a licensure requirement for the purpose of DME provider enrollment, the Department of State Health Services
 does license all wholesalers and manufacturers of DME, which may include some DME providers.

     Source: Analysis of State Medicaid DME standards compiled by OIG.




OEI.04.05.00180              MEDICAID PROVIDER ENROLLMENT STANDARDS: MEDICAL EQUIPMENT PROVIDERS
                                                                                                                                              22
        APPENDIX C
                  Table 1 (cont): Medicaid Standards Implemented by the 15 States as of October 2005
      State       P.o. Box       P.O. Box Records Records Signage           Signage       Surety     Surety
                  Prohibition    Verified   Storage Storage and Hours and Hours Bonds                Bonds
                                                      Verified  Posted      Posted                   Verified
                                                                                             Verified
      CA                X              X              X             X             X                X
      CT                X              X                                          X                X
      DC                X              X             X
      FL                X              X             X             X              X                X    X   X
      GA                X              X                                          X                X
      IL                X              X             X             X              X                X
      MN                X              X
      MT                X
      NV                X              X             X             X              X                X
      NJ                X              X                                          X                X
      NY                X              X             X             X              X                X
      NC                X                            X
      OH                X                            X
      TX                X
      WY
      Total             14             10            8             5              8                8    1   1
           Source: Analysis of State Medicaid DME standards compiled by OIG.




OEI.04.05.00180              MEDICAID PROVIDER ENROLLMENT STANDARDS: MEDICAL EQUIPMENT PROVIDERS
                                                                                                                23
  .. APPENDIX D
   Seven States required providers to enroll as a Medicare DME provider in order to become Medicaid providers.
   Although the purpose of                our inspection was to          determine the extent to which States themselves had implemented
   standards and whether States followed the imp                         Ie mentation ofthese standards with a State review of   providers to
   determine if they were compliant, the requirement to enroll in Medicare does provide additional standards for State
   Medicaid programs. The following table provides analysis of the effect of the Medicare requirement on the total
   number of reviewed State-implemented standards. Please note the following about the information provided:
        · Column A lists each standard. For the definition of each standard, refer to Appendix B.
        · Column B provides the number of States that have implemented each standard exclusively through their own Medicaid
              programs. This column does not include any States with the requirement to enroll in Medicare.
        · Column C provides the number of States that have exclusively established each standard by requiring providers to enroll
              in the Medicare program as a condition of Medicaid enrollment. States in this column do not review if providers have
              met these standards, and instead rely upon the Medicare program for both the establishment of the standards and
              verifying and enforcing compliance with each of the standards. We do not know the extent to which such States are
              aware of       Medicare's verification or enforcement of
                                                                                  the standards.
                                                                                         compliance with each of


        · Column D provides the number of States that have both implemented each standard specifically through their own
              Medicaid programs, as well as through the requirement for Medicaid providers to enroll in Medicare.
        · Columns B- D are mutually exclusively; States can only be included in one column.
        · Column E provides the total number of                          States with each standard, by adding columns B-D.




OEI-04-05-00180                      MEDICAID PROVIDER ENROLLMENT STANDARDS: MEDICAL EQUIPMENT PROVIDERS
                                                                                                                                                24
   ;.,PPENDIX D
                               Table i: Effect ofthe Requirement to Enroll in Medicare on State Standards*
                                                                September - October 2005
                                 Column B:                          Column C:                            Column D:                   Column E:
                               Number of States                   Number of States                 Number of States with both     Total Number of
           Column A:                                                                                   State-Implemented          States with the
            Standard               with State-               Establishing Standards
                                 Implemented                  Exclusively Through                     Standards and the              Standard
                                Standards Only               Medicare    Requirement
                                                                                                     Medicare Requirement             (B+C+D)
       Criminal History
       Disclosure                       8                                 0                                    7                          15
       Ownership
                                        8                                 0                                    7
       Disclosure                                                                                                                         15
       P.O. Box
                                        8                                 1                                    6
       Prohibition                                                                                                                        15
       Primary Phone
                                        8                                 3                                    4
       Number                                                                                                                            15
       Licensure                        8                               NA**                                 NA**                        8
       Records Storage                  5                                 4                                    3                         12
       Signage and
       Hours Posted
                                        5                                 4                                    3                         12
       Accessibility
       During
       Reasonable                       4                                 3                                   4                          11
       Business Hours
       Inventorv                        3                                 4                                   3                          10
       Liability
      Insurance                         3                                 7                                   0                          10
      Suretv Bonds                      1                               NA ***                              NA ***                        1
      Moratorium                        1                               NA ***                              NA ***                        1
       *Providers enrolled in the Medicare program are subject to Medicare standards in addition to those listed in the table. Refer to
       Appendix A for a complete listing of Medicare standards.
       -Medicare providers must operate their business in compliance with all applicable Federal and State licensure and regulatory requirements, as
       required in 42 CFR § 424.57(c)(1). However, there is no Federal
                                                                       licensure for Medicare DME providers.
       **Surety Bonds and Moratorium are not Medicare requirements, and therefore have been exclusively implemented by States.

           Source: Analysis of State Medicaid DME standards compiled by OIG.



OEI-04-05.00 180             MEDICAID PROVIDER ENROLLMENT STANDARDS: MEDICAL EQUIPMENT PROVIDERS
                                                                                                                                                       25
                                                                                               Report Template Update = 04-30-05_rev.13




  ΔA       P
            A PC EK N N D OI W
                             X
                               L AE D G M E N T S                                                                 




                      This report was prepared under the direction of Ann E. O’Connor,
                      Regional Inspector General for Evaluation and Inspections in the
                      Atlanta regional office. Other principal Office of Evaluation and
                      Inspections staff who contributed include:



                      Linda Abbott, Program Specialist
                      Mark Biagioni, Co-Lead Analyst
                      Stacey Bloomer, Team Leader
                      Peggy Daniel, Co-Lead Analyst

                      Tricia Davis, Director, Medicare Branch
                      Sharon Koehler, Program Analyst
                      Scott Manley, Program Specialist
                      Gerius Patterson, Data and Statistical Analyst
                      Rob Rutland-Brown, Program Analyst




OEI-04-05-00180       M E D I C A I D P R O V I D E R E N R O L L M E N T S TA N D A R D S : M E D I C A L E Q U I P M E N T P R O V I D E R S
                                                                                                                                                 26
